             Audit Report 





OIG-11-036
AUDIT REPORT
INFORMATION TECHNOLOGY: Treasury is Generally in Compliance
with Executive Order 13103

November 17, 2010



Office of
Inspector General
Department of the Treasury
Contents 


Audit Report.................................................................................................. 3 


    Results in Brief ............................................................................................. 4 


    Background ................................................................................................. 4 


    Findings and Recommendations ..................................................................... 5 


Appendices

    Appendix 1:          Management Comments ........................................................ 11
    Appendix 2:          Major Contributors to This Report ........................................... 14
    Appendix 3:          Report Distribution ................................................................ 15

Abbreviations

    CIO                  Chief Information Officer
    EO                   Executive Order
    OCIO                 Office of the Chief Information Officer
    OIG                  Treasury Office of Inspector General
    TD                   Treasury Directive




                         Treasury is Generally in Compliance with Executive Order 13103 (OIG-11-036)         Page 2
                                                                                     Audit
OIG
The Department of the Treasury
                                                                                     Report
Office of Inspector General




                  November 17, 2010

                  Diane Litman
                  Acting Deputy Assistant Secretary for Information Systems
                     and Chief Information Officer
                  Department of the Treasury

                  The objective of this audit was to determine whether the
                  Department of the Treasury (Treasury) is in compliance with
                  Executive Order (EO) 13103, Computer Software Piracy, which
                  directs executive agencies to work diligently to prevent and combat
                  computer software piracy and to ensure that their policies,
                  procedures, and practices are adequate and fully implement the EO.
                  We performed this audit at the request of the Office of the Chief
                  Information Officer (OCIO).

                  To accomplish our objective, we examined Treasury’s relevant
                  policy and procedures and interviewed Treasury officials about
                  promoting legal software use and proper software management.
                  We conducted our fieldwork in Washington, D.C., from May 2010
                  through August 2010.

                  We performed this audit in accordance with generally accepted
                  government auditing standards. Those standards require that we
                  plan and perform the audit to obtain sufficient and appropriate
                  evidence to provide a reasonable basis for our findings and
                  conclusions based on our audit objectives. We believe that the
                  evidence obtained provides a reasonable basis for our findings and
                  conclusions based on our audit objectives.




                  Treasury is Generally in Compliance with Executive Order 13103 (OIG-11-036)   Page 3
Results in Brief
               We determined that Treasury is generally in compliance with EO
               13103, but Treasury’s policy and procedures could be improved to
               ensure compliance. Specifically, we found the following:

                   1. Treasury Directive (TD) 85-02, Software Piracy Policy, needs
                      some clarification.
                   2. The Treasury Chief Information Officer (CIO) needs to create
                      and manage an enterprise list of authorized software and
                      maintain an accurate inventory of installed software.
                   3. The Treasury CIO needs department-wide procedures for
                      auditing and tracking software licenses.

               We are making six recommendations to the Treasury CIO to
               address the findings noted above.

               In a written response, the Acting Treasury CIO agreed with our
               findings and recommendations and provided plans for corrective
               actions that are responsive to the intent of our recommendations
               (see appendix 1).
Background
               EO 13103 was signed by the President on September 30, 1998. It
               directed, among other things, that

               •	 each executive agency adopt procedures to ensure that it does
                  not acquire, reproduce, distribute, or transmit computer
                  software in violation of applicable copyright laws; and
               •	 each executive agency establish procedures to ensure that it
                  uses only computer software not in violation of applicable
                  copyright laws.

               OCIO provides leadership to Treasury and its bureaus in all areas of
               information and technology management. It has department-wide
               responsibility for directing and developing Treasury’s information
               technology strategy, managing information technology
               investments, and leading key technology initiatives.




               Treasury is Generally in Compliance with Executive Order 13103 (OIG-11-036)   Page 4
TD 85-02, approved on May 4, 2010, assigns responsibilities and
establishes procedures and practices for Treasury’s implementation
of EO 13103.

According to the directive, it is the responsibility of the Treasury
CIO to:

•	 develop and implement an enterprise-level plan that ensures that
   the department is in compliance with the executive order;
•	 coordinate with Treasury bureaus and offices to perform an
   initial assessment of existing policies and practices with respect
   to use and management of computer software;
•	 maintain an enterprise list of department-authorized and
   supported software that indicates terms of licenses, authorized
   number of users, and physical location of software;
•	 conduct periodic spot audits to ensure that Treasury bureaus
   and offices are in compliance with software licensing
   agreements; and
•	 establish centralized software acquisition.

Additionally, the heads of bureaus and offices are assigned the
responsibility to:

•	 establish clear responsibility and authority within the
   organization for managing software licenses;
•	 establish and maintain an accurate software inventory for both
   newly acquired software and software already purchased;
•	 conduct and report annually to the OCIO, software inventory
   reviews which reconcile purchase against the inventory;
•	 establish and implement procedures for disposal of software in
   accordance with guidance provided in the software licenses
   agreement; and
•	 conduct periodic audit checks (i.e., spot audits) to ensure that
   their respective bureaus and offices are in compliance with
   software license agreements.




Treasury is Generally in Compliance with Executive Order 13103 (OIG-11-036)   Page 5
Findings and Recommendations

Finding 1 	   TD 85-02, Software Piracy Policy, Needs Some
              Clarification

              We found that TD 85-02’s compliance with EO 13103 could be
              improved. We found two areas in TD 85-02 that need clarification:

              •	 Its definition of authorized software—“software developed,
                 approved, purchased, or licensed by an agency”—is too broad
                 because the definition allows any purchased software to be
                 called authorized.
              •	 It requires reconciliation of bureaus’ and offices’ software
                 inventories with purchases rather than with software license
                 agreements. The current wording in the directive states that
                 bureaus and offices are to “conduct and report annually, to the
                 Office of the Chief Information Officer, software inventory
                 reviews which reconcile purchases against the inventory.”

              Additionally, while TD 85-02 requires creation of an authorized
              software inventory, the policy is lacking adequate guidance in
              ensuring compliance with this inventory. Specifically:

              •	 It does not contain a statement requiring bureau and office
                 heads to ensure that software in their inventory is on the
                 Treasury list of authorized software.
              •	 It does not require the CIO to perform periodic audit checks to
                 determine if the bureaus and offices are only using software on
                 the Treasury list of authorized software.

              EO 13103 requires that each executive agency establish
              procedures to ensure that it uses only computer software not in
              violation of applicable copyright laws.

              Based on the requirements of TD 85-02, Treasury cannot be sure
              that only authorized, licensed software is installed on its systems.
              Accordingly, Treasury could unknowingly be in violation of EO
              13103.




              Treasury is Generally in Compliance with Executive Order 13103 (OIG-11-036)   Page 6
              Recommendation

              1. We recommend that the Treasury CIO revise TD 85-02 as
                 follows:

              •	 Define authorized software more specifically.
              •	 Require heads of bureaus and offices to ensure that software in
                 their inventory is on the Treasury list of authorized software and
                 remove it if it is not.
              •	 Require the CIO to perform periodic audit checks to determine if
                 the bureaus and offices are only using software on the Treasury
                 list of authorized software.
              •	 Require the bureaus and offices to reconcile their inventory with
                 software license agreements, rather than with software
                 purchases.

              Management Response

              The Acting Treasury CIO agreed with our finding and
              recommendation. Treasury will revise TD 85-02 to incorporate the
              recommended changes.

              OIG Comment

              The Acting Treasury CIO’s planned actions are responsive to our
              recommendation.

Finding 2 	   The Treasury CIO Needs to Create and Manage an
              Enterprise List of Authorized Software and Maintain an
              Accurate Inventory of Installed Software

              During our audit, we found that the Treasury CIO did not have an
              enterprise list of authorized software or maintain an inventory of
              installed software for Treasury bureaus and offices. Additionally,
              Treasury CIO did not have procedures for creating or managing an
              enterprise list of authorized software.

              As previously noted, EO 13103 requires that each executive
              agency establish procedures to ensure that it uses only computer
              software not in violation of applicable copyright laws. These


              Treasury is Generally in Compliance with Executive Order 13103 (OIG-11-036)   Page 7
procedures may include preparing agency inventories of the
software on its computers and developing and maintaining
adequate recordkeeping systems. In addition, TD 85-02 states that
the Treasury CIO will maintain “an enterprise list of Department
authorized and supported software.”

Lack of an enterprise list of authorized software and an inventory
of installed software puts Treasury at risk of unknowingly having
unauthorized and possibly illegal software on its systems. The
presence of such software could result in financial liability for the
department and could also introduce vulnerabilities to Treasury
systems. During our audit, for example, we examined a list of
installed software for one Treasury bureau that included several
instances of questionable software.

Recommendations

We recommend that the Treasury CIO do the following:

2. Develop procedures to create and manage a list of approved
   enterprise authorized software.
3. Maintain an accurate inventory of installed software.
4. Ensure that bureaus remove unauthorized software from
   Treasury systems.

Management Response

The Acting Treasury CIO agreed with our finding and
recommendations. Treasury will develop procedures for managing
an enterprise list of approved software, maintain an inventory of
installed software, and ensure removal of unauthorized software.

OIG Comment

The Acting Treasury CIO’s planned actions are responsive to our
recommendations.




Treasury is Generally in Compliance with Executive Order 13103 (OIG-11-036)   Page 8
Finding 3 	   The Treasury CIO Needs Department-wide Procedures for
              Auditing and Tracking Software Licenses

              TD 85-02 sets forth Treasury’s department-wide policy regarding
              the use of licensed software. The directive states that it is the
              policy of the department to utilize only “copies of licensed
              authorized software, purchased by the Department of the Treasury
              Bureaus and Offices in accordance with the authorized software
              license terms.” However, the department has not yet developed
              procedures for ensuring this is carried out. For example, among
              other things, during its monthly data calls to bureaus and offices,
              the OCIO does not collect or address software licensing
              information. In addition, Treasury procured a software management
              tool that performs license tracking and inventory, but has not
              deployed it Treasury-wide.

              TD 85-02 also states that the Treasury CIO is responsible for
              developing and implementing an enterprise-level plan that ensures
              that the department is in compliance with EO 13103 and for
              conducting periodic audit checks to ensure that bureaus and offices
              are in compliance with software license agreements.

              By not having procedures in place to support its policy, Treasury is
              at risk that it will not be in compliance with software licensing
              terms.

              Recommendations

              We recommend that Treasury CIO do the following:

              5. Establish and implement department-wide procedures for
                 auditing and tracking software licenses.
              6. Complete deployment of the software management tool.


              Management Response

              The Acting Treasury CIO agreed with our finding and
              recommendations. Treasury is in the process of deploying a
              software tool to establish consistent procedures for auditing and
              tracking software licenses.


              Treasury is Generally in Compliance with Executive Order 13103 (OIG-11-036)   Page 9
OIG Comment

The Acting Treasury CIO’s reported actions are responsive to our
recommendations.


                                  ******

I would like to extend my appreciation to the OCIO staff for the
cooperation and courtesies extended to my staff during the audit. If
you have any questions, please contact me at (202) 927-5171 or
Abdirahman Salah, Audit Manager, at (202) 927-5763. Major
contributors to this report are listed in appendix 2.

/s/

Tram Jacquelyn Dang
Audit Director




Treasury is Generally in Compliance with Executive Order 13103 (OIG-11-036)   Page 10
Appendix 1
Management Response




Treasury is Generally in Compliance with Executive Order 13103 (OIG-11-036)   Page 11

Appendix 1
Management Response




Treasury is Generally in Compliance with Executive Order 13103 (OIG-11-036)   Page 12

Appendix 1
Management Response




Treasury is Generally in Compliance with Executive Order 13103 (OIG-11-036)   Page 13

Appendix 2
Major Contributors to this Report




Office of Inspector General, Office of Information Technology Audit

Tram J. Dang, Director, Information Technology Audit
Abdirahman Salah, Current Audit Manager
Gerald Steere, Former Audit Manager
Susan I. Roy, Former Audit Manager
Larissa Klimpel, Information Technology Specialist (Lead)
Jason Brown, Information Technology Specialist
Dan Jensen, Information Technology Specialist




Treasury is Generally in Compliance with Executive Order 13103 (OIG-11-036)   Page 14
Appendix 3
Distribution List




Department of the Treasury

Office of the Chief Information Officer
Office of Accounting and Internal Control
Office of Strategic Planning and Performance Management

Office of Management and Budget

Office of Inspector General Budget Examiner




Treasury is Generally in Compliance with Executive Order 13103 (OIG-11-036)   Page 15
